No. 20-1800

In the
Supreme Court of the United States
HAROLD SHURTLEFF, et al.,
Petitioners,
v.
CITY OF BOSTON, et al.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the First Circuit
BRIEF AMICI CURIAE OF THE CONGRESSIONAL
PRAYER CAUCUS FOUNDATION, THE NATIONAL
LEGAL FOUNDATION, AND PACIFIC JUSTICE
INSTITUTE
in Support of Petitioner
Steven W. Fitschen
James A. Davids
The National Legal
Foundation
524 Johnstown Road
Chesapeake, Va. 23322
(757) 463-6133
David A. Bruce
205 Vierling Dr.
Silver Spring, Md. 20904

Frederick W. Claybrook, Jr.

Counsel of Record

Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

1

INTERESTS OF AMICI CURIAE1
The
Congressional
Prayer
Caucus
Foundation (CPCF) is an organization established
to protect religious freedoms (including those related
to America’s Judeo-Christian heritage) and to
promote prayer (including as it has traditionally
been exercised in Congress and other public places).
It is independent of, but traces its roots to, the
Congressional Prayer Caucus that currently has over
100 representatives and senators associated with it.
CPCF has a deep interest in the right of people of
faith to speak, freely exercise their religion, and
assemble as they see fit, without government
censorship or coercion. CPCF reaches across all
denominational, socioeconomic, political, racial, and
cultural dividing lines. It has an associated national
network of citizens, legislators, pastors, business
owners, and opinion leaders hailing from forty-one
states.
The National Legal Foundation (NLF) is a
public interest law firm dedicated to the defense of
First Amendment liberties and the restoration of the
moral and religious foundation on which America
was built. The NLF and its donors and supporters,
including those in Massachusetts, seek to ensure
that the free exercise of religion and the autonomy of
religious organizations is protected.
The parties were given timely notice and have consented
to the filing of this brief in writing. No counsel for any
party authored this brief in whole or in part. No person
or entity other than Amici and their counsel made a
monetary contribution intended to fund the preparation
or submission of this brief.
1

2

The Pacific Justice Institute (PJI) is a nonprofit legal organization established under section
501(c)(3) of the Internal Revenue Code. Since its
founding in 1997, PJI has advised and represented in
court and administrative proceedings thousands of
individuals, businesses, and religious institutions,
particularly in the realm of First Amendment rights.
As such, PJI has a strong interest in the
development of the law in this area. PJI often
represents religious organizations whose members
wish to speak and congregate publicly without
unconstitutional, discriminatory restrictions.
SUMMARY OF ARGUMENT
Providing
groups
the
opportunity
to
communicate on government property does not give
the government the right to discriminate based on
the content of their speech. Nor does a permitting
process convert private speech into government
speech. That conclusion follows from both this
Court’s forum analysis under its Free Speech Clause
jurisprudence and its Free Exercise Clause
precedents requiring religious organizations to be
treated in a non-discriminatory basis when
government benefits are dispensed or restrictions
imposed. Both lines of authority condemn Boston’s
actions here. Even if Boston had set up a limited,
rather than a designated, forum, the First Circuit
was manifestly wrong in holding that Petitioners and
the Christian flag they sought to exhibit did not
qualify for participation in it.
The

First

Circuit

also

misused

the

3

Establishment Clause to justify Boston’s viewpoint
discrimination against religious speech. In doing so,
it relied on its own decision in Carson v. Makin,
which this Court will hear argued this coming term.
The Court should promptly grant the petition, but, at
a minimum, it should hold this petition in abeyance
pending its decision in Carson.
ARGUMENT
Your Amici concur with Petitioners that (a)
Boston established, by policy and practice, a
designated public forum from which they were
wrongfully excluded; and (b) the First Circuit
wrongly identified Petitioners’ speech as government
speech. Without repeating the petition’s arguments,
your Amici wish to raise briefly the following
supplementary points.
I.

Even If the Forum Were a Limited One,
Boston Improperly Denied Petitioners’
Request

As if it were the beginning and end of the
issue, the First Circuit repeatedly states that Boston
had restricted use of the flagpole to “flags of
countries,
civic
organizations,
or
secular
causes.” See, e.g., Shurtleff v. Boston, 986 F.3d 78,
84, 91, 92, 93 (1st Cir. 2021). Without analysis, it
excludes from this grouping Petitioners and their
desire to exhibit the Christian flag as their symbol.
Two points deserve mention.
First, even in limited public forums on
government
property
that
require
advance
permission for their use, discrimination against

4

religious viewpoints violates the Free Speech
Clause. See, e.g., Lamb’s Chapel v. Ctr. Moriches
Union Free Sch. Dist., 508 U.S. 384 (1993); Widmar
v. Vincent, 454 U.S. 263 (1981).
Second, it is befuddling that the First Circuit
apparently does not regard churches and other
religious organizations that may exhibit the
Christian flag as “civic organizations.” We deem it
unnecessary to launch into an excursus of de
Toqueville and a multitude of others who would beg
to differ. It is unnecessary, in part, because the
Supreme Court in Lamb’s Chapel affirmed that
religious organizations are “civic” bodies and that
prohibiting a religious expression on a topic
otherwise allowed in the limited public forum is
unconstitutional viewpoint discrimination. 508 U.S.
at 391-94.
II.

The
First
Circuit’s
Decision
Is
Inconsistent with This Court’s Recent
Precedent Prohibiting Discrimination
Against Religious Groups in the Granting
of Government Benefits

In a recent series of decisions beginning
with Trinity Lutheran Church v. Comer, 137 S. Ct.
2012 (2017), and continuing with Espinoza v.
Montana Department of Revenue, 140 S. Ct. 2246
(2020), Roman Catholic Diocese of Brooklyn v.
Cuomo, 141 S. Ct. 63 (2020), and Tandon v. Newsom,
141 S. Ct. 1294 (2021), this Court has made it
pellucid that a government offends the Free Exercise
Clause when it withholds a government benefit from,
or imposes greater restrictions on, religious
organizations because of their religious status. That

5

is exactly what Boston has done here, and explicitly
so. Incredibly, the First Circuit sees as an excuse
that no other flag flown had been described in
religious language. 986 F.3d at 96. That only
defines the problem. Governments may not deny or
restrict benefits to civic organizations because of
their religious status.
III.

The Establishment Clause Does Not
Justify Boston’s Discrimination Against
the Christian Flag, and, at a Minimum,
This Case Should Be Held Until Carson v.
Makin Is Decided

The First Circuit also gives credence to
Boston’s claim that, by discriminating against
Petitioners’ religious speech, it was honoring the
Establishment Clause. The petition well discusses
how this part of the court’s ruling contradicts the
precedent of this Court and that of other circuits.
Two additional comments are in order.
First, it is facially incredible to suggest that
display of the Christian flag on Boston’s third
flagpole would be considered by a reasonable
observer to be government speech. Any such
reasonable observer would know that this flagpole
has been used hundreds of times over a few years by
private organizations on a temporary basis and that
the city does not agree with everything espoused by
each of those organizations or with everything those
flags represent. A reasonable observer would
understand any flag’s exhibition for what it is stated
to be: a benefit granted by the city to allow a private
organization to fly its selected emblem for a short
time—in other words, an exercise in private, not

6

government, speech. See Lamb’s Chapel, 508 U.S. at
394-96 (rejecting argument similar to Boston’s in
part because the limited forum was used by many
different civic organizations).
Second, the First Circuit when discussing
Establishment Clause issues relied in large part on
its own recent decision in Carson v. Makin, 979 F.3d
21 (1st Cir. 2020). See 986 F.3d at 95. This Court
has
recently
granted
the
petition
to
review Carson (No. 20-1088, July 2, 2021), and the
First
Circuit’s
decision
appears
manifestly
contradictory to this Court’s recent ruling
in Espinoza. While the questions presented by this
case that do not overlap those of Carson deserve
independent consideration by this Court, such that
the Court should grant this petition at its earliest
convenience, at the very least the Court should
reserve consideration of this petition until after its
decision in Carson.
CONCLUSION
The petition should be granted for the reasons
stated in it and for the additional reasons stated
above. The First Circuit’s decision is manifestly
contrary to this Court’s precedent and shows a
hostility toward, rather than a protection of, our
religious freedoms.
Respectfully submitted
this 26th day of July, 2021,
Frederick W. Claybrook, Jr.

Counsel of Record

Claybrook LLC

7

700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com
Steven W. Fitschen
James A. Davids
The National Legal
Foundation
524 Johnstown Road
Chesapeake, Va. 23322
(757) 463-6133
David A. Bruce
205 Vierling Dr.
Silver Spring, Md. 20904

